September 23, 2008

WILLIAM C. RUCKER III
MANAGER, OPERATIONS SUPPORT, SOUTHWEST AREA

SUBJECT: Audit Report – Oklahoma City Processing and Distribution Center Activation
         (Report Number NO-AR-08-009)

This report presents the results of our audit on the adequacy of the activation of the new
Oklahoma City Processing and Distribution Center (P&DC) (Project Number
08XG036NO000). Our objective was to determine if the U.S. Postal Service was in
compliance with activation requirements related to mail processing at the Oklahoma
City P&DC. This audit is the second in a series and was conducted in cooperation with
the Southwest Area. Click here to go to Appendix A for additional information about this
audit.

Conclusion

Overall, the Oklahoma City P&DC activation team did a commendable job of overseeing
the opening of the new facility, complying with 10 of the 11 activation requirements in
the Facility Activation – Master Plan, dated July 21, 2003. However, the team did not
develop an operating plan and corresponding mail arrival profile prior to the site
activation. As a result, the Postal Service may not have effectively matched personnel
to mail volume, requiring subsequent adjustments to staffing levels and increasing the
risk of mail delays and service degradation. During the audit, the Postal Service team
completed their operating plan and mail arrival profile for the Oklahoma City P&DC.

Compliance with Activation Requirements

The site activation team successfully completed 10 of the 11 requirements in the Facility
Activation – Master Plan. Those activation steps included:

    •   Establishing an activation coordinator/committee.
    •   Determining staffing levels.
    •   Identifying training and equipment requirements.
    •   Creating an employee orientation and a supervisor’s guide.
    •   Implementing acceptance of business mail at the facility.
    •   Reviewing the contingency planning.
    •   Tracking the Decision Analysis Report (DAR) return on investment.
Oklahoma City Processing and Distribution Center                                                     NO-AR-08-009
 Activation



Further, 793 employees were successfully placed in new positions in the organization,
and mail processing operations from four former facilities were successfully integrated
into a single new facility to more efficiently process the mail and better serve the
community.

As a result of the Southwest Area’s efforts to obtain new or float1 equipment, Oklahoma
City P&DC employees were able to enter a turn-key facility2 on their first day of
operation. When the former Oklahoma processing facilities closed, their equipment was
returned to the original locations throughout the nation as needed to replace what was
diverted to the Oklahoma City P&DC. The Southwest Area also organized a move team
made up of district maintenance volunteers to assist with the equipment movement and
installation which freed local Oklahoma maintenance employees to continue day-to-day
operations. As a result of these actions and additional efforts by Oklahoma District
employees, Postal Service management stated they are on target to achieve the return-
on-investment (ROI) required by the DAR.

Although the Oklahoma City P&DC activation team did a commendable job on most of
the activation requirements, they did not complete or update the operating plan which
included a mail arrival profile. Click here to go to Appendix B for our detailed analysis of
this topic.

Cause

Management did not have sufficient staff or time to develop an operating plan and the
mail arrival profile. Instead, they utilized machine end-of-run and other reports to
develop their staffing needs.

Effect

As a result, the Oklahoma City P&DC may not have effectively matched personnel to
mail volume requiring subsequent adjustments to staffing levels and increasing the risk
of mail delays and service degradation. A review of service scores from the activation
date until July 2008 shows significant fluctuations continue in 2- and 3-day External
First-Class Measurement System (EXFC)3 scores. During the audit, the Postal Service
team completed their operating plan and mail arrival profile for the Oklahoma City
P&DC.

We recommend the Manager, Operations Support, Southwest Area, in future site
activations:

1
  Float equipment is equipment that is in limited use by a facility and can be borrowed on a short term basis by
another facility with a special need, such as undergoing an activation.
2
  Turn-key facility is a facility ready for immediate use.
3
  EXFC is the system the Postal Service uses to determine service performance of the mail from the time mail enters
the mail stream until it is delivered.



                                                         2
Oklahoma City Processing and Distribution Center                            NO-AR-08-009
 Activation



1. Provide oversight during transitions to ensure completion of the operating plan and
   mail arrival profile.

Management’s Comments

Management agreed with the recommendation. Management’s comments in their
entirety are included in Appendix E.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendation and corrective actions should resolve the
issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc:    Patrick R. Donahoe
       William P. Galligan
       David E. Williams
       Ellis A. Burgoyne
       Katherine S. Banks




                                                   3
Oklahoma City Processing and Distribution Center                                                 NO-AR-08-009
 Activation


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service has seen a decline in the total mail volume of 3.2 percent through
the first two quarters of fiscal year (FY) 2008, resulting in a net loss of over $700 million.
In July 24, 2008, testimony before Congress, the Deputy Postmaster General stated,

        The Postal Law of 2006 has changed the way we’re regulated.
        However, it doesn’t change our basic mission — to bind the nation
        together through the correspondence of our people and to provide
        prompt, reliable and efficient mail services.

He concluded,

        Consolidations or closures are part of a strategy to serve the overall
        needs of the postal system and its customers nationwide.4

In 1966, the Postal Service constructed the former Oklahoma City P&DC, containing
229,410 square feet of floor space. Additional processing facilities used to supplement
operations at the P&DC were the Mail Processing Annex established in 1986, and a
P&DC Surface Hub leased in 1997. The former P&DC has limited space and also has
some structural damage requiring repair. While numerous repair projects have been
performed to maintain safety and allow for continued operations, additional repairs
estimated to cost $8.1 million were still needed.




4
 Statement of Deputy Postmaster General before the Subcommittee on Federal Workforce, Postal Service, and the
District of Columbia, of the Committee on Oversight and Government Reform, U.S. House of Representatives, July
24, 2008.




                                                       4
Oklahoma City Processing and Distribution Center                           NO-AR-08-009
 Activation




                                  Former Oklahoma City P&DC

Therefore, the Board of Governors approved a new replacement facility in April 2006.
The new $101 million building has 830,665 square feet of working and office space, a
29,684 square foot vehicle maintenance facility (VMF), and a 12,000 square foot
warehouse. The Express Mail® processing operation from the air mail facility, the
surface mail hub, the mail processing annex, and the Oklahoma District offices were
also transitioned to the new facility. Click here to go to Appendix C for additional
information about the consolidation.




                                                   5
Oklahoma City Processing and Distribution Center                              NO-AR-08-009
 Activation




                                    New Oklahoma City P&DC

The Oklahoma City P&DC was activated in May 2008, and processes approximately 3.7
million pieces of mail daily for ZIP Code areas 730-731, 734-738, and 748. With the
new facility, the Postal Service will be able to consolidate mail processing operations
that were performed in four separate buildings. Additionally, the VMF and Oklahoma
District offices will be integrated into this new facility. Management stated the new
facility would improve operational efficiencies, provide better service to customers and
reduce labor intensive activities.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine if the Postal Service was in compliance with activation
requirements at the Oklahoma City P&DC related to mail processing. To achieve this
objective, we analyzed the facility activation plan, mail volumes, service scores, trends
in delayed mail, training records, and transportation schedules. We interviewed Postal
Service officials and employees, and used computer-processed data from the following
systems.

     •   Web Enterprise Information System
     •   Enterprise Data Warehouse

We did not test controls over these systems. However, we checked the reasonableness
of results by confirming our analyses and results with Postal Service managers and
multiple data sources.




                                                   6
Oklahoma City Processing and Distribution Center                                NO-AR-08-009
 Activation


We conducted this performance audit from June through September 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on August 7, 2008, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

                                     Final
                    Report          Report         Monetary
Report Title       Number            Date           Impact        Report Results
Activation of     NO-AR-08-        July 10,          None     The Postal Service did
the               004              2008                       not implement some key
Philadelphia                                                  activation steps resulting
Processing                                                    in significant delayed mail
and                                                           and service degradation.
Distribution
Center




                                                   7
Oklahoma City Processing and Distribution Center                               NO-AR-08-009
 Activation


                         APPENDIX B: ACTIVATION COMPLIANCE

The Postal Service successfully completed 10 of the 11 activation requirements in the
Facility Activation-Master Plan, and stated they were on target to achieve the ROI
stated in the DAR. However, the team did not develop an operating plan and
corresponding mail arrival profile prior to the site activation. Instead, management used
end-of-run and other reports to develop their staffing needs. While these reports may
provide some assistance in determining mail volumes as processed through the
machinery, an up-to-date operating plan and mail arrival profile allow for Postal Service
managers to better match staffing needs with existing mail flows.

As a result, the Postal Service may not have effectively matched personnel to mail
volume, requiring subsequent adjustments to staffing levels and increasing the risk of
mail delays and service degradation. A review of service scores from the activation
date until July 2008 indicated overnight scores have recently shown an upward trend,
however, significant fluctuations continue in 2- and 3-day EXFC scores. During the
audit, the Postal Service team completed their operating plan and mail arrival profile for
the Oklahoma City P&DC. Click here to go to Appendix D for service scores.

The table below summarizes the activation steps contained the Facility Activation –
Master Plan, dated July 21, 2003, and their implementation status.




                                                   8
Oklahoma City Processing and Distribution Center                                      NO-AR-08-009
 Activation


                            ACTIVATION STEPS IMPLEMENTATION


       Mail Processing Activation Steps                       Implemented
Activation Coordinator/Committee                                    Yes
Forecast Required Equipment                                         Yes
Staffing Requirements                                               Yes
Employee Orientation                                                Yes
Business Mail Entry Unit**                                          Yes
Decision Analysis Report Compliance^                                Yes
Contingency Planning                                                Yes
Supervisor's Guide – Operations                                     Yes
Maintenance Training (In Advance)                                   Yes
Update Operating Plan                                                No
Train Staff in New Skills                                           Yes

Notes
**Business mail entry unit is an acceptance unit for bulk mailers.
^The sponsor or requesting organization prepares a DAR recommending an investment and providing the
approving authority with adequate information to make a prudent business decision. The DAR explains
the background and purpose of the program and fully documents costs and benefits estimates. Costs
must be supported with documentation showing the calculations and the basis for all assumptions.
Revenue projections or volume changes should be supported by a market analysis that outlines the
justification with supporting volume changes, price increases, and impact on the total market.

Additionally, the Southwest Area was able to obtain new or used float equipment,
enabling employees to enter a turn-key facility on their first day of operation. When the
former Oklahoma City processing facilities closed, the equipment was returned to those
locations around the country as needed to replace what was diverted to the Oklahoma
City P&DC. The Southwest Area also organized a move team made up of district
maintenance volunteers to assist with the equipment movement and installation which
freed local Oklahoma maintenance employees to continue day-to-day operations.




                                                   9
Oklahoma City Processing and Distribution Center                                            NO-AR-08-009
 Activation



                     FLOAT EQUIPMENT USED IN OKLAHOMA CITY P&DC


                                        NUMBER OF
                 EQUIPMENT                PIECES                     LOCATION
                   TYPE5                 RECEIVED                 RECEIVED FROM
               AFCS with BDS                 2              Baton Rouge, LA
               DIOSS-C                       1              San Juan, PR
               DIOSS                         2              Houston, TX
                                                            Little Rock, AR
               AFSM 100                        1            Houston, TX
               UFSM 1000                       1            Baton Rouge, LA
               APPS                            1            North Houston, TX
               IPSS                            1            Built by Southwest Area
                                                            from spare parts
               DBCS-6                          3            Albuquerque, NM
                                               1            Texarkana, TX
                                               1            Lufkin, TX
                                               1            Alexandria, LA




5
  Equipment Type: AFCS with BDS – Advance Facer Canceller System with Biohazard Detection System, DIOSS –
C Delivery Input Output Subsystem, AFSM – Automated Flat Sorting Machine, UFSM – Universal Flat Sorter
Machine, APPS – Automated Package Processing System, IPSS – Image Processing Subsystem, DBCS – Delivery
Bar Code Sorter



                                                    10
Oklahoma City Processing and Distribution Center                                                   NO-AR-08-009
 Activation



                    APPENDIX C: OKLAHOMA CITY PROCESSING AND
                       DISTRIBUTION CENTER CONSOLIDATION




Note: The Oklahoma District offices were added to the DAR without additional expense effective August 21, 2006.
      The Customer Service Section is still operating at the Oklahoma Air Mail Facility.




                                                       11
Oklahoma City Processing and Distribution Center                                                       NO-AR-08-009
 Activation



                      APPENDIX D: OKLAHOMA CITY PROCESSING AND DISTRIBUTION CENTER AND
                     NATIONAL EXTERNAL FIRST-CLASS MEASUREMENT SYSTEM SERVICE SCORES 6




                                                                          Redacted




6
    White arrow in each of the charts depicts the date of the Oklahoma City P&DC site activation, May 28, 2008.

                                                                               12
Oklahoma City Processing and Distribution Center              NO-AR-08-009
 Activation




                                                   Redacted




                                                      13
Oklahoma City Processing and Distribution Center              NO-AR-08-009
 Activation




                                                   Redacted




                                                      14
Oklahoma City Processing and Distribution Center           NO-AR-08-009
 Activation




                       APPENDIX E: MANAGEMENT’S COMMENTS




                                                   15
